Audit Report, “NASA’s Information Technology Vulnerability Assessment Program”
(IG-05-016, May 12, 2005)

The NASA Office of Inspector General conducted a review to determine whether NASA
had established an effective program to reduce unacceptable vulnerabilities in NASA’s
information technology (IT) systems.

We found that the NASA Chief Information Officer (CIO) had established an ongoing
process to assess the most current vulnerability assessment tools available and used tools
that were most effective in the NASA environment. In addition, the CIO established
formal requirements and guidance for scanning, accumulating, analyzing, and addressing
identified vulnerabilities and for reporting FY 2004 vulnerability data. However, our
work at four NASA Centers found that the Centers did not comply with the Vulnerability
Assessment Program. Specifically, two Centers had not fully implemented the program’s
requirements for scanning systems and none of the Centers had fully complied with the
reporting requirements established by the NASA CIO. Management either took or was
planning to take corrective actions in response to our recommendations.

The report contains NASA Information Technology/Internal Systems Data that is not
routinely released under the Freedom of Information Act (FOIA). To submit a FOIA
request, see the online guide.
